               u.s. GENERAL SERVICES ADMINISTRATION
               Office of Inspector General




Date:          March 31,2010

Reply to       Deputy Assistant Inspector General for Auditing
Attn of:       Information Technology Audit Office (JA-T)

To:            Kathleen M. Turco
               Chief Financial Officer, Office of the Chief Financial Officer (B)

Subject:       Opportunities Exist to Improve GSA's Implementation Of The E2 Travel System
               Report Number A080 l80/B/TIF 10002


This report presents the results of our follow-on audit of the General Services Administration's
(GSA) E2 Solutions (E2) travel management system. The initial audit examined whether E2 met
requirements for the Federal Information Security Management Act of 2002 (FISMA) and
GSA's Information Technology (IT) Security Program. Our objective for this audit was to
determine whether E2 is meeting GSA's travel management needs, including intended goals and
benefits for an e-Government travel system. This review found that E2 enabled GSA to meet a
major E-Gov goal by providing employees with the ability to electronically complete travel
transactions from travel planning and authorization through reimbursement of travel
expenditures. However, we found opportunities to improve GSA's implementation of E2 by
providing important management information on system operations and by enhancing system
usability and user satisfaction.

We found that the full costs for GSA's implementation of the E2 system and associated services
were not being captured. Nor were there targeted goals and performance measures to assess how
well E2 met GSA's specific travel management needs. Also, since the E2 system contains
mechanisms for obligating and dispersing Federal funds, it is considered a financial management
system, which requires additional oversight and control points. We found that required scrutiny
of internal and financial controls needed to ensure efficient and effective operations with E2 has
not occurred with GSA's implementation of the system. Furthermore, recurring concerns raised
with customer satisfaction surveys were not being resolved as needed. These concerns included
issues with site navigation, held desk support, and customer training. Finally, additional
assurance is needed to verify that E2 adequately meets the needs of people with disabilities at
GSA. The results of our user surveys are discussed in Appendices D through F. Written
comments to the draft report state that actions will be initiated by the Office of the Chief
Financial Officer to address the recommendations in this report. These comments are included
in their entirety in Appendix G.




                     24118th Street 5., CS4, Suite 607, Arlington, VA 22202-3402
                                                     ~
                           Federal Recycling Program ' - , Printed on Recycled Paper
I wish to express my appreciation to all of your staff and other persons who cooperated during
the audit. If you have any questions, please contact me or Gwendolyn McGowan, the Deputy
Assistant Inspector General for Auditing, Information Technology Audit Office, on 703-308-
1223.

/             ('~~
o    0--/,'/"      ~
,Larry E. Bateman
 Audit Manager
 Information Technology Audit Office (JA-T)
      OPPORTUNITIES EXIST TO IMPROVE GSA’S
    IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
         REPORT NUMBER A080180/B/T/F10002


                 March 31, 2010




 
                                 OPPORTUNITIES EXIST TO IMPROVE GSA’S
                               IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                                          A080180/B/T/F10002

                                                       TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................................... i

Purpose................................................................................................................................. i
Background .......................................................................................................................... i
Results-in-Brief .................................................................................................................... i
Recommendations ............................................................................................................... ii
Management Comments .................................................................................................... iii

INTRODUCTION............................................................................................................. 1

RESULTS OF AUDIT ...................................................................................................... 3

Opportunities Exist to Improve Cost Management for GSA’s Implementation of E2……3
                       Total Costs for E2 Operations Should Be More Closely Monitored……….4

                       Annual Reporting Limited to CGWT Costs……………………………………4

Specific Performance Goals and Measures Are Needed…………………………………..5

Clarification of Roles and Responsibilities for Assessing Specific Controls Could
Improve System Operations Across GSA........................................................................... 6
                       Internal Controls for GSA's Implementation of E2 Should Be Assessed….6

                       Operational Assessments Would Provide the OCFO with Important
                       Information on System Implementation……………………………………….7

                       Verifying that E2 Meets JFMIP Requirements Would Help to Ensure
                       that All Needed System Functionality Is Provided………………………….8
Opportunities Exist to Improve Usability of the E2 Travel System……………………...9

                       Recurring Concerns Raised with User Satisfaction Surveys Have Not
                       Been Resolved……………………………………………………………………9
                       Annual User Satisfaction Surveys Indicate Recurring Challenges and
                       Dissatisfaction…………………………………………………………………...9




 
               Figure 1. ETS Vendor User Satisfaction Results………………….……...10

               Figure 2. GSA Employee Satisfaction by Function.……………………...11

            User Concerns Persist and Indicate that Additional Changes Are Needed…..11

            Promoting Training for E2 Could Improve User Satisfaction…………………12

Reconsidering Section 508 Compliance Requirements for the Agency Could Assist
in Making E2 More Accessible by GSA Employees with Disabilities…..…………………..12

Conclusion……………………………………………………………………………………14

RECOMMENDATIONS…………………………………………………………………...14

MANAGEMENT COMMENTS……………………………………………………….......14

INTERNAL CONTROLS…………………………………………………………………..15
                                    APPENDICES

APPENDIX A – OBJECTIVE, SCOPE, AND METHODOLOGY………………………..A-1

APPENDIX B – TIMELINE OF KEY ACTIVITIES AND MILESTONES
IMPACTING GSA’S IMPLEMENTATION OF E2……………………………………….B-1

APPENDIX C – CONTRACT ENVIRONMENT FOR GSA’S
IMPLEMENTATION OF E2………………………………………………………………C-1

APPENDIX D – RESULTS OF GSA-OIG GENERAL USER
SATISFACTION SURVEY………………………………………………………………..D-1

APPENDIX E – RESULTS OF GSA-OIG TRAINING
SATISFACTION SURVEY………………………………………………………………..E-1

APPENDIX F – RESULTS OF GSA-OIG USER SUPPORT
SATISFACTION SURVEY………………………………………………………………..F-1

APPENDIX G – GSA CFO RESPONSE TO THE DRAFT REPORT……………………G-1

APPENDIX H – REPORT DISTRIBUTION……………………………………………...H-1
 




 
                                          OPPORTUNITIES EXIST TO IMPROVE GSA’S
                                        IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                                                   A080180/B/T/F10002

                                                               EXECUTIVE SUMMARY

Purpose

This report presents the results of our follow-on audit of the General Services Administration’s
(GSA) E2 Solutions (E2) travel management system. The initial audit 1 examined whether E2
met requirements for the Federal Information Security Management Act of 2002 (FISMA) and
GSA’s Information Technology (IT) Security Program. This audit focused on GSA’s E2
implementation for use by GSA employees. GSA implemented E2 in December 2006. E2
annually processes for GSA travelers about 36,000 temporary duty and local travel vouchers,
valued at $28.2 million. Our objective for this audit was to determine whether E2 is meeting
GSA’s travel management needs, including intended goals and benefits for an e-Government
travel system. Appendix A describes the audit objective, scope, and methodology.

Background

In November 2003, as the managing partner for e-Travel, GSA awarded three master contracts to
vendors to implement the e-Gov Travel Service (ETS) initiative for the Federal government
through 2012. GSA’s contract with Carlson Wagonlit Government Travel (CWGT) provided
use of its E2 system, one of the three options offered under the ETS initiative. In December
2004, the GSA Chief Financial Officer (CFO) issued a task order with CWGT to implement E2
across GSA. Related contracts were put in place: (1) with ADTRAV Travel Management
(AdTrav) to acquire professional travel agent and related services to assist GSA in meeting its
travel needs for various types of domestic and international travel, in February 2004 and (2) with
Daston to integrate multiple existing application service desks into a single off-site, consolidated
service desk providing superior customer service to GSA end users, in March 2007. This
consolidation included the E2 help desk service. Currently, GSA is implementing corrective
actions steps to address findings and recommendations that were provided with our 2009 FISMA
review of the E2 system.

Results-in-Brief

E2 enabled GSA to meet a major e-Gov goal by providing employees with the ability to
electronically complete travel transactions from travel planning and authorization through
reimbursement of travel expenditures. However, our review of the system found opportunities to

                                                            
1
 FY 2009 Office of Inspector General Audit of the E2 Travel System Security Controls, Report Number
A080180/B/T/F09008, August 7, 2009 

                                                                       i



 
improve GSA’s implementation of E2 by providing important management information on
system operations and by enhancing system usability and user satisfaction.

We found that the full costs for GSA’s implementation of the E2 system and associated services
were not being captured. Nor were there targeted goals and performance measures to assess how
well E2 met GSA’s specific travel management needs. Also, since the E2 system contains
mechanisms for obligating and dispersing Federal funds, it is considered a financial management
system, which requires additional oversight and control points. We found that required scrutiny
of internal and financial controls needed to ensure efficient and effective operations with E2 has
not occurred with GSA’s implementation of the system. Furthermore, recurring concerns raised
with customer satisfaction surveys were not being resolved. These concerns included issues with
site navigation, held desk support, and customer training. Finally, additional assurance is needed
to verify that E2 adequately meets the needs of people with disabilities.

Focusing on these key aspects for successful implementation of E2 and mitigation of user
concerns would help GSA promote more efficient and effective travel management operations
and facilitate ease with system activities required for processing GSA’s travel transactions.

                                   RECOMMENDATIONS

We recommend that the GSA-CFO take the necessary actions to improve:
1. Controls for system operations across GSA by:
    a. Ensuring that relevant costs for GSA’s implementation of E2 are identified and tracked to
        better enable the CFO to make crucial management decisions regarding financial
        requirements and operational goals.
    b. Developing specific goals and performance measures for GSA’s implementation of E2
        and monitoring actual performance compared to expected results.
    c. Ensuring that needed components of required assessments for GSA-specific
        implementation are completed to verify that system controls are operating as intended
        and meet both management and user needs.
    d. Working with the Chief Information Officer to clarify roles and responsibilities for E2
        operations and that specifically delineate differences between managing and contributing
        partners.
    e. Gaining assurance that E2 successfully meets Joint Financial Management Improvement
        Program/Financial Systems Integration Office requirements.
2. System usability by:
    a. Coordinating with the E-Gov Travel Program Management Office to have GSA
        employees concerns addressed with system modifications.
    b. Promoting training for E2 for GSA employees
    c. Reconsidering Section 508 compliance requirements for the Agency to ensure that GSA
        employees with disabilities can more easily complete travel transactions in E2.



                                                ii



 
Management Comments

The GSA CFO fully concurs with the audit recommendations for this review, and a copy of the
written management response to our draft report is provided in Appendix G.




                                            iii



 
                                          OPPORTUNITIES EXIST TO IMPROVE GSA’S
                                        IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                                                   A080180/B/T/F10002

                                                               INTRODUCTION

Expanding Electronic Government (e-Gov) was one of the key elements of the President’s
Management Agenda initiated by President George W. Bush in July 2001. GSA is the managing
partner for the e-Gov Travel Service (ETS) initiative, which was launched in April 2002. The
ETS Program Management Office (PMO), which awarded three competitively bid contracts to
vendors to implement the ETS, is part of the GSA Federal Acquisition Service. To meet ETS
goals, the E2 travel system needed to: (1) be a Government-wide, web-based, world-class travel
management service; (2) use a cost model that reduces or eliminates capital investment and
minimizes total cost per transaction for the government; and (3) be based on a policy
environment that would use best travel management practices.

For purposes of GSA’s implementation of E2, the GSA Chief Financial Officer (CFO) is a
customer purchasing the use of E2 as a service. It is one of three systems that the E-Gov Travel
Program Management Office (PMO) offers under the Electronic Government (e-Gov) Travel
Service (ETS) initiative. The E2 system is owned and maintained by Carlson Wagonlit
Government Travel (CWGT). For security control purposes, E2 has been designated as a
“moderate risk 2 ” system.

As the Agency’s travel management system, E2 is considered a financial management system
and is therefore required to meet requirements set forth by applicable Federal statutes and
regulations. For instance, the Federal Financial Management Improvement Act of 1996
(FFMIA) advances Federal financial management by ensuring that Federal financial
management systems provide accurate, reliable, and timely financial management information to
government managers. E2 is also a System of Record 3 that contains Privacy Act data, which
includes sensitive but unclassified information including personally identifiable information
(PII), financial data, credit card information, and transaction amounts. Other legal and
regulatory provisions that apply to the E2 system are noted as needed in the body of this report.

At GSA, the Office of the CFO is responsible for managing user accounts, including authorizing
system access and approval routing, and for implementing appropriate Agency travel policy.
The E-Gov Travel PMO, within the Federal Acquisition Service (FAS), is responsible for
working with the E2 vendor to make approved system changes, including all contract provisions.
In December 2004, the GSA-OCFO selected E2 as GSA’s e-Travel system to provide travel
                                                            
2
   Systems are designated as “moderate risk” if the loss of confidentiality, integrity, or availability could be expected
to have a serious adverse effect on organizational operations, organizational assets, or individuals.
3
   A Privacy Act System of Record is a system containing information that is retrieved by an individual’s name or
other unique identified assigned to the individual. This information is protected under the Privacy Act of 1974.

                                                                    1



 
services for the Agency and subsequently implemented E2 in December 2006. GSA travelers
can access E2 directly from the Internet, or from behind GSA’s network firewall. Through E2,
GSA also began processing miscellaneous reimbursements that are not associated with official
travel in October 2008.

Appendix B provides a timeline of key events and milestones impacting GSA’s implementation
of the E2 system.




                                             2



 
                                    RESULTS OF AUDIT

GSA has met an initial major goal to provide Agency employees with an electronic travel
management system. The system provides for electronic travel transactions from beginning to
end, from travel planning and authorization through reimbursement of travel expenditures. Also
it gave GSA, for the first time, the capability to complete on-line booking through an agency-
wide travel management system.

Nonetheless, GSA has not yet developed and exercised important operational controls with the
implementation of E2. We found that the full costs for E2 services and operations across GSA
are not being captured. Targeted goals and performance measures to comprehensively assess
how well E2 is meeting all of GSA’s travel management needs are not yet in place. Additional
scrutiny is necessary to ensure that existing internal and financial controls are adequate to
mitigate unique risks across GSA’s travel system operations. Further, recurring concerns raised
through customer satisfaction surveys have not been effectively addressed. Specific issues raised
by E2 users relate to low satisfaction with site navigation, help desk support, and customer
training. We also found that additional assurance is needed to verify that the E2 system meets all
of the needs for people with disabilities at GSA.

Corrective actions in each of these areas will strengthen GSA’s ability to verify the reliability,
accuracy, and completeness of E2 travel transactions. By strengthening operational controls, for
instance, the OCFO will be better equipped with status information to gauge how well agency-
wide financial and travel management needs are being met with E2 system operations.
Furthermore, improvements could help GSA ensure more efficient and effective operations and
promote ease with system activities, which are necessary to process important travel transactions.
Taken together, heightened attention to these risk areas could chart a course for long-term
success with the E2 travel management system and achieve a higher degree of customer
satisfaction.

Opportunities Exist to Improve Cost Management for GSA’s Implementation of E2

One of the objectives established for GSA’s Information Technology (IT) capital planning and
investment control process is to monitor performance by measuring actual cost against planned
cost. For e-Gov systems, agencies are directed through Office of Management and Budget
(OMB) Memorandum M-03-18 and OMB Circular A-11 to use capital planning for information
systems. Revenues and system expenditures must be accurately recorded for the system to be in
compliance with the Federal Financial Management Improvement Act of 1996 (FFMIA) and the
Federal Managers Financial Integrity Act of 1982 (FMFIA). The first Act requires agencies to
incorporate accounting standards and reporting objectives into their financial management
systems so that all expenses and the full costs of programs and activities of the Federal
Government can be consistently and accurately recorded, monitored, and uniformly reported
throughout the Federal government. Similarly, FMFIA specifies requirements for managing and


                                                3



 
tracking costs for financial systems, stating that there should be assurance that revenues and
expenditures are properly recorded and accounted for.

Total Costs for E2 Operations Should Be More Closely Monitored One of the government-wide
goals with implementing e-Gov initiatives, including e-Travel, is to reduce or eliminate capital
investment and minimize total cost per transaction for the government. However, the current
process for reporting on Agency investments associated with e-Gov systems does not provide a
mechanism to fully capture all costs associated with GSA’s implementation of E2. Without a
comprehensive picture of all costs associated with GSA’s implementation of E2, it is unclear
what the total cost of the system is to GSA for implementing travel management services.

As shown in Appendix C, GSA has applied multiple contracts with its implementation of the E2
travel system. Our review noted three conditions related to available cost information for GSA’s
implementation of the E2 system, as follows:

    •   A task order with CWGT at an estimated award amount of $10.17 million. The task
        order included a base period with three option periods covering December 2004 through
        November 2013. GSA exercised the second option period in November 2008 and will
        decide whether or not to exercise the third option period in September 2010.

    •   A firm fixed price task order with AdTrav for acquiring professional travel agency and
        related services to meet the Agency’s travel needs for various types of domestic and
        international travel. Estimated costs for AdTrav services between March 2004 and
        February 2009 are $17.4 million. GSA extended AdTrav services through October 2009
        and negotiated with AdTrav to cover one base year and three option years from
        November 2009 to November 2013. Likewise, with this task order GSA did not specify a
        total estimated value: only fees for specific travel transactions were stipulated.

    •   A task order, under Daston’s contract, to operate a consolidated service desk for
        assistance with numerous OCFO financial applications. While GSA’s Daston contract is
        estimated at just over $5 million for the life of the task order, specific costs for E2 service
        desk support are not delineated.


Annual reporting limited to CWGT costs Through the annual budget process, GSA reports on
estimated one-time vendor payments for implementation and integration of E2 and on select fee-
for-services expenses paid to CWGT. These costs are included as part of the Budget Exhibit
300. Fee-for-service costs reported are based on annual voucher counts and associated travel
reservations services provided by CWGT. Categories of fee-for-service costs reported include
traditional travel agent reservations, on-line reservations, fulfillment, and voucher transaction
fees. This, however, does not capture all related costs.
         

                                                  4



 
GSA’s annual costs for AdTrav and Daston are not captured as part of the cost for e-Gov travel
systems. Also, prior to implementing the E2 system GSA did not pay for the kinds of services
that are currently being tracked as fee-for-service costs to CWGT. The complete cost for E2
implementation is clouded even more because fees to Daston for providing help desk services for
E2 since March 2007 are not delineated. Further, since estimates rather than actual costs are in
the contract documentation, associated fees are not available in existing cost estimates for E2.

Had GSA opted to use CWGT travel management center with E2, the fees paid for this option
would have been reflected in the Exhibit 300. Such fees included booking a trip, making rental
car and hotel reservations, and any of the reservations currently provided to GSA by AdTrav.
The fees would also cover on-line booking engine and processing local travel vouchers or local
and miscellaneous claim vouchers. According to the GSA-CFO, from July 2006 through
November 2009, GSA spent $3,204,977 on such fees. Of this amount, $1,784,933 was paid to
CGWT and $1,420,044 was paid to AdTrav. However, since estimates for CWGT rather than
actual costs are reported with the Exhibit 300 process, some of the actual costs may not be
reflected in the Exhibit 300. Further, neither Daston nor AdTrav costs associated with GSA’s
implementation of E2 were captured or reflected with annual reporting for the system.

Taking the needed steps to capture all operational costs for this important system will better
enable GSA to develop and maintain the capability to monitor progress toward financial and
travel management improvement goals. In addition, ensuring that all relevant costs for GSA’s
implementation of E2 are tracked would better enable the CFO to make management decisions,
including whether or not to exercise the next option period in September 2010.

Specific Performance Goals and Measures Are Needed

While GSA operates under broader goals established for government-wide electronic travel
management systems, the OCFO has yet to establish agency-specific goals or performance
measures for the E2 system. By defining targeted goals and performance measures for GSA’s
implementation of E2, the OCFO would be better able to measure how well the system is
meeting GSA’s long-term and immediate travel management needs.
 Long standing policy charges Federal agencies to focus on defining missions, setting goals,
measuring performance, and reporting accomplishments to include demonstrated improvements
in performance measurement 4 . Performance goals are to be objective, quantifiable, and
measurable in order to provide a basis for comparing actual results against established goals.
OMB also requires that agencies demonstrate whether the level or quality of performance and
capability meets the performance goals and continues to meet agency and user needs.

While no agency-specific goals or performance measures for GSA’s implementation of the E2
system were identified, OCFO officials reported that they do track goals established for the e-
                                                            
4
     The Government Performance and Results Act of 1993

                                                               5



 
Gov initiative. We noted that performance measures for two government-wide goals were
considered with GSA’s implementation of E2. Migrating to an e-Gov vendor was considered a
goal. The other goal was integrating agency specific Travel Management Centers (TMCs) with
the E2 system. For this goal, the GSA-CFO monitors on-line reservations booked through the
E2 system and processed by the TMC. We found that other e-Gov goals, including minimizing
costs and improving customer satisfaction, should be more carefully considered for GSA’s
implementation of the system. The ability to regularly monitor progress in completing these
goals would provide GSA with important performance indicators regarding how well the system
is meeting all management and user needs, including requirements for effective and efficient
travel management services.

Clarification of Roles and Responsibilities for Assessing Specific Controls Could Improve
System Operations Across GSA

The OCFO has not yet fully assessed financial and internal controls with its implementation of
the E2 travel system. Guidance provided by the GSA-CIO for IT Capital Planning,  IT
governance, Systems Development Life Cycle, and other areas for Agency investments in IT
systems requires that Services and Staff Offices measure and assess the outcomes of initiatives to
determine whether expected benefits were returned and to identify potential improvements for
future implementations. Primary mechanisms for evaluation are Post-Implementation Reviews
and other operational assessments. Evaluation results are used to: make decisions and plans for
future system increments; help identify remaining gaps; and, assist in deciding whether to
continue to fund programs. Measuring outcomes and taking appropriate corrective action is the
fundamental way to ensure accountability for results. While the OCFO cannot directly introduce
specific changes to the E2 system, it can work with GSA’s E-Gov Travel Project Management
Office and CWGT to promote needed system modifications. The OCFO can also use the
information provided from these assessments to make decisions regarding whether or not to
continue offering the various agency-wide travel management services. Specifically, a
comprehensive assessment of financial and internal controls for E2 operations would facilitate
GSA’s approaching decision regarding whether or not to continue with CWGT travel
management services.
 
Internal Controls for GSA’s Implementation of E2 Should Be Assessed The Office of
Management and Budget (OMB) requires completion of internal control reviews of financial
management systems to consider whether the requirements of several Federal Statutes and other
guidelines are being met. Additionally, Statement of Auditing Standards Number 70 (SAS 70)
provides guidance on the audit and reporting surrounding financial transactions processed by a
service organization 5 on behalf of one or more customers. The service organization can be an

                                                            
5
  A service organization is defined as an entity (or component of an entity) that provides services to a customer in which those
services are part of the customer’s information system (e.g., processing of transactions). 


                                                                 6



 
outside contractor or a cross-servicing government agency, and the customer can be a
government agency or a commercial enterprise. For purposes of GSA’s implementation of E2,
the OCFO is the customer purchasing use of the E2 system as a service. Vendor cooperation and
participation in general auditing and inspection is required by the e-Gov master contract.
Following contract award, OMB issued a memo in April 2004 calling for cross-servicing
government agencies to consider SAS 70 in their audit planning. However, requirements for
SAS 70 reviews were not included as a mandatory requirement when the master contracts were
awarded. Regarding e-Gov, OMB provided the following “draft” guidance on SAS 70 in 2007:
• SAS 70 audits are not mandatory for the ETS systems.
• Customer agencies need to determine the extent to which the internal controls at the ETS
    vendor should be tested in a SAS 70 audit.
• If enough agencies contracted with a particular ETS vendor want to audit travel and internal
    controls at their e-Gov vendor, then a SAS 70 audit may be the right course of action.

In September 2007, OMB provided additional guidance on SAS 70 audits and ETS, indicating
that, when auditing is necessary, a service organization must either (1) provide a Service
Auditor’s Report, or (2) allow the customer’s auditor to perform appropriate tests at the service
organization. Best practices in these cases call for SAS 70 reviews to be completed by the
service organization provider to obtain assurance on the internal control of a service organization
and report on whether (1) internal controls were designed properly to achieve specified
objectives and placed into operation as of a specified date and (2) the controls that were tested
were operating effectively to provide reasonable assurance that the related control objectives
were met during the period specified. A SAS 70 review has not been completed for E2, and
GSA’s implementation of the system was not included with the assessment of internal controls
provided by the Independent Public Accountant review of the Agency’s financial management
systems. Without a review of internal controls for E2, there is more assurance that internal
controls are in place and operating as intended, produce effective and efficient operations and
reliable financial reporting, and comply with applicable laws and regulations.

Operational Assessments Would Provide the OCFO with Important Information on System
Implementation Two methods are noted for performing operational assessments. One is a Post-
Implementation Review (PIR), which evaluates how well the Agency spends its resources in
implementing its IT initiative. The PIR method follows four steps: (1) assessing mission needs
and determining project goals, which should include cost, schedule, risk, and performance
measures; (2) collecting and analyzing data to record results against previously established goals;
(3) providing major findings and issues; and (4) providing feedback and incorporating lessons
learned. OMB Circular A-11 requires agencies to establish a process to measure the
performance and cost of an operational asset against a previously established baseline. The other
method, as established under OMB Circular A-11, is an Operation Analysis (OA). This involves
collecting information concerning a capital asset’s performance and comparing it to a previously
established baseline. This can result in recommendations to agency resource managers on the
capital asset’s continued use, modification, improvement, or termination.


                                                7



 
Neither a PIR nor an OA has been completed for either the government-wide ETS solution
provided by CWGT or for GSA’s implementation of the system. While an independent
verification and validation assessment was completed in January 2004 for the Government-wide
solution provided to GSA, this assessment focused narrowly on testing for E2 functionality.
Beyond annual customer satisfaction surveys for E2, no other OA or PIR have been completed.
Adhering to OA guidance would facilitate E2 implementation decisions that consider: (1)
analysis of alternatives, (2) performance metrics, (3) customer survey, (4) post implementation
document review, and (5) budget and cost review. Results from either of these assessments
would be valuable information on how well the E2 system is performing and whether or not the
system is meeting all GSA’s travel management needs.

Verifying that E2 Meets JFMIP Requirements Would Help to Ensure that All Needed System
Functionality Is Provided The CFO leads Agency efforts to establish and implement effective
financial management policies, internal controls, and financial management systems. As a travel
management system, E2 is considered a financial management system and is therefore required
to meet requirements set forth by the Financial Systems Integration Office 6 (FSIO). The CFO is
also responsible for overseeing the financial management activities relating to Agency-wide
operations. Our review found that, because Joint Financial Management Program (JFMIP)
requirements have not been sufficiently tested or documented, it is unclear whether GSA’s E2
implementation adequately addresses all required functionality for Federal travel systems.

Compliance for systems under the Federal Financial Management Improvement Act (FFMIA) is
determined by evaluating mandatory requirements provided by JFMIP. Specifically, FFMIA
requires agencies to incorporate accounting standards and reporting objectives into their financial
management systems. With the ETS initiative, the FAS E-Gov Travel PMO has conducted
testing of JFMIP requirements through a process for independent validation and verification of
the E2 Travel System. During our audit, we sampled 21 of the mandatory JFMIP requirements
established for Federal travel systems. We noted a lack of documentation to verify successful
testing for 13 requirements; and the independent validation and verification process had not
tested 7 other requirements. We also sampled all of the nine general value-added requirements
and found that there was no documentation to support successful testing for three of the
requirements. Without evidence to demonstrate successful completion of travel management
requirements for E2, GSA lacks assurance that E2 implementation meets all mandated financial
requirements. This situation results, in part, from uncertainties with roles and responsibilities for
implementing e-Gov systems and services. The OCFO should gain assurance that all required
financial management functions are being met with E2 and ensure that the Agency’s
implementation of the system complies with financial and regulatory requirements.



                                                            
6
 The Office of Management and Budget (OMB) directs that requirements formerly established with the Joint
Financial Management Improvement Program be met with FSIO.

                                                               8



 
Opportunities Exist to Improve Usability of the E2 Travel System

Implementing E2 across GSA provided the Agency with the ability to complete necessary travel
transactions from travel planning and authorization through reimbursement of travel
expenditures, providing employees with the ability to also complete on-line booking through the
Agency travel management system for the first time. However, opportunities exist to improve
usability of E2 for GSA employees, including addressing reoccurring user satisfaction concerns
raised by GSA employees in feedback to annual user satisfaction surveys and in response to our
questions about the system, and providing training to for GSA employees. Additional assurance
is also needed to verify that E2 adequately meets requirements for people with disabilities.
Taking steps to address system usability in each of these areas could help address user concerns
and improve employees’ ease in navigating the system and completing travel transactions.

Recurring Concerns Raised with User Satisfaction Surveys Have Not Been Resolved GSA
employees have provided feedback annually on satisfaction with E2 since 2006 when the
Agency implemented the system for travel management services. However, employees continue
to be dissatisfied with the system. Our audit found that improvements could be made in the areas
of system functionality and usability by addressing concerns raised by GSA employees. Users
should be provided a means to suggest changes and identify problems for operational systems 7 .
A user satisfaction review, which may include a customer satisfaction survey, can be designed
and distributed to obtain feedback on a system to help determine if the system continues to be
accurate and reliable. A user satisfaction review records the effectiveness, correctness, and ease
of use of the system from the user’s perspective. A user satisfaction review can also be
completed at any point during the information systems life cycle. Results of these types of
reviews are intended to guide improvements to the system.

Annual User Satisfaction Surveys Indicate Recurring Challenges and Dissatisfaction Given that
E2 is provided to the CFO as a government-wide service, GSA cannot directly introduce specific
changes to customize the system for improved usability. Since 2006, users have been providing
feedback on e-Gov vendor systems through annual user satisfaction surveys. Figure 2
summarizes survey results from all government responders for 2007 and 2008 for the three e-
Gov vendors.
                                                                
                                                                
                                                                
                                                                
                                                                
                                                                
                                                                
                                                                
                                                                

                                                            
7
    GSA System Development Life Cycle Guidance Handbook, August 2006

                                                               9



 
                            Figure 1 ‐ ETS Vendor User Satisfaction Results


                                  100
                                   90                               EDS
                                   80
                                   70
                                   60




                              Percent
                                   50                               Northrop 
                                   40
                                   30                               Grumma
                                   20                               n
                                   10
                                    0
                                         2007          2008
                                                Year


                                                                                 
Overall, GSA employees who responded to the annual surveys for E2 continue to be unhappy
with system capabilities for creating travel authorizations and approving travel. GSA employees
are more pleased with reimbursements, using the system for travel reservations, and creating
travel vouchers. However, responses to the annual user satisfaction surveys do not automatically
result in system modifications, and GSA users continue to be dissatisfied with the E2 system.

A 2006 draft report on the results of 935 government E2 users showed user satisfaction at 36.7
percent. While this figure included the responses of 115 GSA employees, the results were not
separated by agency. GSA specific results were documented in the 2007, 2008, and 2009 user
satisfaction surveys. The GSA E-Gov travel Project Management Office recently provided
results for E2’s FY 2009 satisfaction survey. Survey results indicate that Government-wide
satisfaction with E2 increased from 27.5 percent in 2007 to 39 percent in 2008 and 51.6 percent
in 2009. GSA employees’ responses closely mirrored the government-wide responses at 28.9
percent in 2007, 44 percent in 2008, and 48.5 percent in 2009. Figure 3 presents the GSA
response for the 2007, 2008, and 2009 e-Gov user satisfaction surveys broken out by E2
function.




                                                  10



 
                          Figure 2 ‐ GSA Employee Satisfaction by E2 Function


                                  100
                                                                       Travel
                                       80                              Authorization

                                                                       Travel




                             Percent
                                       60
                                                                       Reservation
                                       40                              Travel Voucher
                                       20
                                                                       Reimbursement
                                       0
                                            2007   2008         2009
                                                    Year



                                                                                         
General comments from GSA employees who responded to the e-Gov annual user satisfaction
surveys for E2 raised issues mainly linked to site navigation, the customer support Help Desk,
the need for super users to be available, and requests for training. When asked what specific
things could be done to increase their satisfaction with E2, responses were generally focused
around dissatisfaction with user friendliness and intuitiveness of the system rather than on
particular system features. GSA employees continue to be most satisfied with fast
payment/reimbursement for travel.

User Concerns Persist and Indicate that Additional Changes Are Needed As part of our review,
we conducted a general user survey of GSA employees in September through October 2009 to
gauge satisfaction with the E2 system. Of the 9,874 GSA employees we surveyed, 3,482 or over
35 percent responded. We also sent follow-up surveys related specifically to training and user
support available with GSA’s implementation of E2. The results of the follow-up training
satisfaction survey indicated that GSA employees generally believe that training they received
helped them to better understand how to navigate the system and complete travel transactions.
The results of the follow-up satisfaction survey on user support provided with GSA’s
implementation of E2 indicated that GSA employees generally rely on a knowledgeable
colleague for assistance with navigating the system and completing travel transactions rather
than E2 system help options, the GSA Consolidated Help Desk, or the CWGT Help Desk.
Responses indicated that on-line help options were not very accommodating, that it is not
generally easy to recover from mistakes, and that on-line information provided is not clear.
Appendices D, E, and F provide more detailed information for the survey responses.

As indicated by responses to our survey, challenges with system usability and training have led
to difficulty navigating the system and completing travel transactions through E2. This has
resulted in continued user frustration and time-consuming activities to process travel transactions
through the system. Training that familiarizes the user with E2 was generally deemed beneficial.




                                                           11



 
Promoting Training for E2 Could Improve User Satisfaction General user training for E2 is not
required for all GSA employees. OMB Circular A-127 requires that adequate training be
provided to the users of financial management systems, based on the level, responsibility, and
roles of individual users, and that training shall enable the users of the systems at all levels to
understand, operate, and maintain the system.

GSA purchased various training options with the CWGT task order. This included classroom,
computer-based or instructor-led training, train-the-trainer format, and standard implementation
service levels based on the number of users. Upon request, the OCFO provides classroom
training from Regions or Service and Staff Offices. While documentation of system training
materials is available on GSA’s Insite, there is no means to track employees’ use of this material,
or to ensure that all GSA employees are aware that this documentation is available. Analysis of
evaluations conducted by users in past E2 training classes for travelers and super users in two
Regions found that when training was provided it was generally helpful and improved familiarity
with the E2 system.

The OCFO is currently updating available training information. The OCFO is also planning to
offer training courses on E2 via GSA On-Line University (GSA OLU) and possibly a
certification-based training program for users with special privileges. This would provide the
ability to track and measure employee understanding about the system. The OCFO also indicated
that Regions currently pay for the travel expenses associated with training. As such, moving the
training on-line could improve customer satisfaction while reducing costs. While these options
are being considered, increased communication on the availability of on-line E2 training
materials would be helpful to GSA employees.

Reconsidering Section 508 Compliance Requirements for the Agency Could Assist in Making
E2 More Accessible by GSA Employees with Disabilities

With its implementation of E2, GSA did not identify additional requirements for Section 508 8
compliance through the task order with CWGT. While the master contract with CWGT for E2
states that Section 508 compliance is included in the application, agencies are informed by the
FAS E-Gov Travel PMO when they select a provider for travel management services that they
are to provide any additional requirements in their respective task orders if they believe Section
508 compliance requirements are not adequately met with the master contract. Two previous
reviews of Section 508 compliance with E2 revealed that specific improvements can be made to
the system to make it more accessible by people with disabilities. By reconsidering Agency
requirements for Section 508 compliance, the OCFO could make it easier for GSA employees to
complete travel transactions through the E2 system.

                                                            
8
  In 1998, Congress amended the Rehabilitation Act to require Federal agencies to make their electronic and
information technology accessible to people with disabilities.

                                                               12



 
Section 508 was enacted to eliminate barriers in information technology, to make available new
opportunities for people with disabilities, and to encourage development of technologies that will
help achieve these goals. This requirement applies to all Federal agencies when they develop,
procure, maintain, or use electronic and information technology. Under Section 508, agencies
must give disabled employees and members of the public access to information that is
comparable to the access available to others. Section 508 standards define electronic and
information technology, in part, as "any equipment or interconnected system or subsystem of
equipment, that is used in the creation, conversion, or duplication of data or information." The
standards also cover technology procured by Federal agencies under contract with a private
entity, such as a commercial service provided by CWGT.

Two independent tests have been conducted to assess E2 for Section 508 compliance. Each test
found similar results, indicating that improvements can be made for E2 to be more accessible to
people with disabilities. In April 2004, a known expert evaluated the accessibility of all three
vendor provided systems for people with disabilities. This evaluation found that the three
systems, in general, allowed registered visitors to book trips on-line, submit travel reports, and
examine a wide range of travel-related information. Three systems also attempted to ensure equal
access to all, regardless of a visitor’s physical condition. However, the report identified several
areas where the systems could improve accessibility for people with disabilities. Specifically for
E2, neither a statement on Section 508 accessibility nor a point of contact for providing disabled
visitors access to the site assistance was identified. Additionally, the site did not provide
TTY/TTD phone lines for the hearing impaired. The assessment also identified problems
navigating the site before permission times out and a lack of alternative text for all images. The
report recommended that CWGT improve disability access and the ability of assistive technology
to function properly when used by (1) improving the labeling of non-text information presented;
(2) providing a TTY/TTD telephone line for the hearing impaired; (3) providing a detailed web
accessibility statement that discusses how the site provides access to those with disabilities, and a
contact for comments, suggestions, or questions regarding the accessibility of the website; and
(4) providing a user definable time-out interval so the system does not time-out and require the
user to re-enter login and password information.

In July 2009, the GSA’s Chief Information Officer (CIO) also assessed E2 compliance with
Section 508 and flagged challenges previously identified related to Section 508 compliance and
system usability. This assessment identified that improvements have not yet been made to
provide a text equivalent for every non-text element and to better design web pages so that all
information conveyed with color is also available without color. The CIO assessment also found
that improvements are needed to better navigate and follow links and forms fully with the
keyboard and that there are a number of other accessibility/usability features that could be
improved. Without specific improvements in E2 to better address Section 508 compliance and
usability, the E2 system is more difficult than necessary for people with disabilities to maneuver
through the system and complete travel transactions. Thus, the OCFO should more carefully
reconsider Section 508 compliance requirements for the Agency to ensure that GSA employees
with disabilities can more easily complete travel transactions in E2.

                                                 13



 
Conclusion

The many laws, regulations, requirements, and processes cited in this report provide ample
testimony that E2 should be managed with a high level of accountability, efficiency, and
integrity. In short, GSA’s stakeholders demand reasonable assurance that obligations and costs
comply with appropriate laws; funds, property, and other assets are safeguarded against waste,
loss, unauthorized use, or misappropriation; and that revenue and expenditures are properly
accounted for and recorded. As well, GSA employees expect ease of use with a travel
management system. By developing well planned and specific actions for remediating our
findings GSA has the opportunity to better realize the intended goals and benefits for an e-
Government travel system as envisioned in the President’s Management Agenda back in 2001.

                                  RECOMMENDATIONS

We recommend that the GSA-CFO take the necessary actions to improve:
1. Controls for system operations across GSA by:
    a. Ensuring that relevant costs for GSA’s implementation of E2 are identified and tracked to
        better enable the CFO to make crucial management decisions regarding financial
        requirements and operational goals.
    b. Developing specific goals and performance measures for GSA’s implementation of E2
        and monitoring actual performance compared to expected results.
    c. Ensuring that needed components of required assessments for GSA-specific
        implementation are completed to verify that system controls are operating as intended
        and meet both management and user needs.
    d. Working with the GSA-OCIO to clarify roles and responsibilities for E2 operations and
        that specifically delineate differences between managing and contributing partners.
    e. Gaining assurance that E2 successfully meets Joint Financial Management Improvement
        Program/Financial Systems Integration Office requirements.
2. System usability by:
    a. Coordinating with the E-Gov Travel Program Management Office to have GSA
        employee concerns addressed with system modifications.
    b. Promoting training for E2 for GSA employees.
    c. Reconsidering Section 508 compliance requirements for the Agency to ensure that GSA
        employees with disabilities can more easily complete travel transactions in E2.

                              MANAGEMENT COMMENTS

The GSA CFO fully concurs with the audit recommendations for this review, and a copy of the
written management response to our draft report is provided in Appendix G.




                                              14



 
                                  INTERNAL CONTROLS

We focused our review on GSA employee satisfaction with the system, tests completed on how
the system meets travel and financial management requirements, and system usability. We also
considered overall cost to GSA for implementing E2 and assessments required with the capital
planning and investment processes, and we reviewed task orders and contracts in place for
GSA’s implementation of the E2 system. We identified internal control weaknesses with GSA’s
implementation of the E2 system, as identified throughout this report. This audit identified
internal control weaknesses with GSA’s implementation of the E2 travel system. During the first
phase of this audit, security control weaknesses were also reported, as noted in Appendix A. Our
review did not include a detailed analysis of transactions completed with E2 or of all controls
and capabilities offered with the system.

. 




                                              15



 
                                       OPPORTUNITIES EXIST TO IMPROVE GSA’S
                                     IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                                                A080180/B/T/F10002

                           APPENDIX A - OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our review was to determine whether GSA’s implementation of the E2 system
is effectively and efficiently meeting management and user needs, including program and
financial requirements, and the achievement of intended goals and benefits for an e-Government
travel management system.

We completed this audit in two separate review phases. With the first review, we considered
security controls applied for GSA’s implementation of E2 and included E2 with the Office of
Inspector General’s Fiscal Year 2009 annual Federal Information Security Management Act
(FISMA) review. We issued an audit report on August 7, 2009 conveying the results of our
FISMA review, including our assessment of implementation of managerial, operational, and
technical controls established with GSA’s Information Technology Security Program to address
FISMA requirements for E2. 9 We focused this second review on GSA’s overall approach for
implementing the E2 system. We assessed GSA employee satisfaction with the system, tests
completed on how the system meets required financial requirements, and system usability, and
we considered overall cost to GSA for implementing E2 and assessments required with the
capital planning and investment processes. We also reviewed task orders and contracts in place
for GSA’s implementation, including the:

•      Task order with CWGT to provide end-to-end travel management services, such as Federal
       travel processes and travel management expertise, web-based reservation services, training,
       implementation and integration planning and support, travel workflow creation with
       protected user roles, and customer support (including eTS functionality and technical support
       for related integration issues, as well as assistance with travel arrangement);
•      Task orders with AdTrav to provide travel agent and related services; and
•      Contract with Daston to integrate multiple existing application service desks into a single off-
       site Consolidated Service Desk to provide user assistance with the following OCFO systems:
       FMIS, Pegasys, E2, and InfoWizard.

We met with various GSA officials from the OCFO, including the Branch Chiefs of the
Development Branch and Client Services Branch and Director, Financial Policy and Internal
Control, Financial Initiatives Division as well as with other officials assigned various
responsibilities in the areas covered during our audit. We also met with the Contracting Officers
and Contracting Officers Technical Representatives for the GSA task order with CWGT, the task
order with AdTrav, and the contract with Daston. We reviewed other key system
documentation, including an independent validation and verification completed on the
Government-wide solution provided to GSA as a service; Office of Management and Budget
                                                            
9
 GSA-OIG FY 2009 Office of Inspector General Audit of the E2 Travel System Security Controls, Report Number
A080180/B/T/F09008, August 7, 2009

                                                               A‐1 
(OMB) Exhibit 300s submitted for the ETS program, reporting on all three vendor systems and
including GSA-OCFO contributing partner funds; assessments completed on how well E2 meets
Section 508 requirements; training available to GSA employees; and evaluations of two training
courses provided. We did not, however, perform a detailed analysis of transactions completed
with E2 or of all controls and capabilities offered with the system.

We reviewed: (1) applicable statues, regulations, policies such as: the Federal Managers
Financial Integrity Act of 1982; the Federal Financial Management Improvement Act of 1996;
the Chief Financial Officers Act of 1990; OMB Circular A-123, Management Accountability and
Control, June 1995; OMB Circular A-11, Preparation, Submission, and Execution of the Budget,
June 2008; OMB Circular A-127, Financial Management Systems, January 2009; OMB
Memorandum M-03-18, Implementation Guidance on the e-Government Act of 2002, August
2003; OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
September 2007; GSA Order, Systems Development Life Cycle (SDLC) Policy, CIO 2140.3,
September 2006, and the GSA System Development Lifecycle Guidance Handbook, August
2006; GSA Order, GSA Information Technology (IT) Capital Planning and Investment Control
(CPIC), CIO 2135.2B, November 2008, and the GSA CPIC Policy Guide, October 2007; Section
508 of the Rehabilitation Act, as amended August 1998; the Government Performance and
Results Act of 1993; the Clinger-Cohen Act of 1996; and the Joint Financial Management
Improvement Program (JFMIP) Travel System Requirements, JFMIP-SR-99-9, July 1999.

We conducted this performance audit work in accordance with generally accepted government
auditing standards between June 2008 and November 2009. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




                                             A‐2 
                                                                                             OPPORTUNITIES EXIST TO IMPROVE GSA’S
                                                                                           IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                                                                                                      A080180/B/T/F10002
                     APPENDIX B – TIMELINE OF KEY ACTIVITIES AND MILESTONES IMPACTING GSA’S IMPLEMENTATION OF E2
      

                                                                                3                                               4                                              5                                                       6                                                    
                                                        2                                                4                                                 6                                           9                                              11
                                                                          3                                                           5                                         7                                          10                                                12 
                                                                                                                                  2          3                       4                          5                         6                                                                   
                                  1         1             2                                              a            1                                   b                        8                      c                                                                                                    
                                                                                                                                                                                                                                           
                                          1     2                                                      1      3                  2                   3    4            5 4    5     6 7                                                                                   
                                                                                                                                                                                                    
                       2003                      2004                     2005                      2006                     2007                     2008                     2009                     2010                    2011                     2012                    2013
          LEGEND     Event extending over a period of time 
                                    CWGT milestones              Daston milestones                           AdTrav milestones                         Other General milestones                   E2 Survey milestones                        

CWGT Milestones                                                   Datson Milestones                                            Adtrav Milestones                                                      Other General Milestones
1.       November 2003 – Master Contract with                     1.      March 2007 – Daston Contract                         1.  February 2004 – 1st AdTrav task order                              1.     January 2004 – IV&V completed by the FAS E-Gov Travel PMO on
         CWGT awarded by GSA                                              awarded by the OCFO                                      awarded on behalf of the OCFO                                             Government-wide E2 Travel System
2.       December 2004 – Task Order awarded to                    2.      March 2007 – September 2007 – Base                   2.  March 2004 – February 2005 – Base Period for                       2.     April 2004 – Section 508 disability assessment report issued for E2
         CWGT by the OCFO                                                 Period for the Daston contract                           the 1st AdTrav task order                                          3.     December 2006 – GSA Implements E2
3.       December 2004 – November 2006 – Base                     3.      October 2007 – September 2008 – 1st                  3.  March 2005 – February 2006 – 1st option                            4.     October 2008 – GSA introduces miscellaneous reimbursements through
         Period for the CWGT task order                                   option period for the Daston contract                    period for the 1st AdTrav task order                                      E2
4.       November 2006 – November 2008 – 1st                      4.      October 2008 – September 2009 – 2nd                  4.  March 2006 – February 2007 – 2nd option                            5.     July 2009 – OCIO Section 508 disability assessment report issued for E2
         option period for the CWGT task order                            option period for the Daston contract                    period for the 1st AdTrav task order                               E2 Survey Milestones
5.       November 2008 – November 2010 – 2nd                      5.      October 2009 – September 2010 – 3rd                  5.  March 2007 – February 2008 – 3rd option                            1.     August 2006 – September 2006 – annual user satisfaction survey for E2
         option period for the CWGT task order                            option period for the Daston contract                    period for the 1st AdTrav task order                                      conducted on behalf of the FAS E-Gov Travel PMO
6.       November 2010 – November 2013 – 3rd                      6.      October 2010 - September 2011 – 4th                  6.  February 2008 – February 2009 – 4th option                         2.     November 2007 – annual user satisfaction survey report for E2 issued on
         option period for the CWGT task order                            option period for the Daston contract                    period for the 1st AdTrav task order                                      behalf of the FAS E-Gov Travel -PMO
                                                                                                                               7.  March 2009 – October 2009 – 1st AdTrav task                        3.     September 2008 – October 2008 – annual user satisfaction survey for E2
a.       November 2006 – 1st option period for                                                                                     order extended                                                            conducted on behalf of the FAS E-Gov Travel PMO
         CWGT task order exercised                                                                                             8.  November 2009 – 2nd AdTrav task order                              4.     August 2009 – annual user satisfaction survey for E2 conducted on
b.       November 2008 – 2nd option period for                                                                                     awarded on behalf of the OCFO                                             behalf of the FAS E-Gov Travel PMO begins
         CWGT task order exercised                                                                                             9.  November 2009 – November 2010 – Base                               5.     September 2009 – October 2009 – GSA-OIG general user satisfaction
c.       November 2010 – Decision to be made                                                                                       Period for the 2nd AdTrav task order                                      survey of E2 conducted
         whether to exercise 3rd option period for                                                                             10. November 2010 – November 2011 – 1st option                         6.     October 2009 – GSA-OIG survey of E2 support conducted
         CWGT task order                                                                                                           period for the 2nd AdTrav task order                               7.     October 2009 – GSA-OIG survey of E2 training conducted
                                                                                                                               11. November 2011 – November 2012 – 2nd option
                                                                                                                                   period for the 2nd AdTrav task order
                                                                                                                               12. November 2012 – November 2013– 3rd option
                                                                                                                                   period for the 2nd AdTrav task order

                                                                                                                                                 B-1


      
        OPPORTUNITIES EXIST TO IMPROVE GSA’S
      IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                 A080180/B/T/F10002

    APPENDIX C – CONTRACT ENVIRONMENT FOR GSA’S
                IMPLEMENTATION OF E2
 




                        C-1



 
                     OPPORTUNITIES EXIST TO IMPROVE GSA’S
                   IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                              A080180/B/T/F10002

    APPENDIX D – RESULTS OF GSA-OIG GENERAL USER SATISFACTION SURVEY
 
We surveyed GSA E2 users to assess their level of satisfaction with the system. The survey
responses are summarized below.
 

    Question 1: How long have you been using E2?


                                       less than 6
                 I do not use E2         months
                      5.29%               7.24%
                                                     6 months to a year     less than 6 months
                                                          16.66%            6 months to a year
                                                                            2 years or longer
                   2 years or longer                                        I do not use E2
                        70.81% 


                                                                                                  


    Question 2: Approximately, how often do you use E2?


                                       Never
                                       5.49%
                                                                          Never
                    Once a year          Once a week
                                            7.41%                         Once a week 
                      36.47% 
                                                                          Once a month
                                           Once a month
                                             35.61%                       2 or 3 times a month
                     2 or 3 times a                                       Once a year 
                         month 
                        15.02% 

                                                                                                  




                                                     D-1



 
     Question 3: Which of the following travel related tasks do you perform in E2? 
                                      
                                                                     Create travel authorizations
                                    Create travel
                   Approve travel, authorizations,
                     22.80%                                          Make travel reservations for
                                      49.50%                         yourself
                                                                     Make travel reservations for
       Create travel                                                 others
       vouchers, 78.75%
                                        Make travel                  Create travel vouchers
                      Make travel     reservations for
                    reservations for yourself, 73.58%                Approve travel
                     others, 6.57%

                                                                                                       


    Question 4: Overall, I am satisfied with how easy it is to use E2.

                                           N/A
                                          4.71%

                                            5           1                                       1
                                         5.81%       17.83%                                     2
                                      4                                                         3
                                   21.99%                 2
                                                                                                4
                                                       19.43%
                                                                                                5
                                               3
                                            30.24%                                              N/A


                                                                                                           

 

 

 

 

 

 

Where a scale from one through five is used, a “1” response indicates that they strongly disagree
with the statement and a “5” response indicates that they strongly agree with the statement.
                                                     D-2



 
    Question 5: I believe using E2 for travel transactions is unnecessarily complex. 




                                        N/A        1                                       1
                                       5.41%    9.05% 2
                                                                                           2
                                     5               15.42%
                                                                                           3
                                  27.32%
                                                                                           4
                                                        3
                                                                                           5
                                        4            21.06%
                                     21.73%                                                N/A


                                                                                                  


    Question 6: I am able to complete travel transactions quickly using E2.


                                              N/A
                                             5.18%
                                        5               1                                  1
                                     8.82%           17.43%                                2
                                     4                                                     3
                                  19.76%                 2
                                                                                           4
                                                      19.97%
                                                                                           5
                                              3
                                           28.84%                                          N/A


                                                                                                  

 

 

 

 

 

 

Where a scale from one through five is used, a “1” response indicates that they strongly disagree
with the statement and a “5” response indicates that they strongly agree with the statement.
                                                    D-3



 
    Question 7: I need support (such as on-line help, documentation, Help Desk) to use E2.



                                         N/A
                                        5.73%        1                                       1
                                                  12.43%
                                      5                                                      2
                                                         2
                                   19.47%                                                    3
                                                      20.08%
                                                                                             4
                                      4
                                                                                             5
                                   18.28%            3
                                                  24.01%                                     N/A


                                                                                                    


    Question 8: E2 has all the functions and capabilities I expect it to have.


                                        N/A
                                       7.00%
                                                    1                                        1
                                        5        10.00%2
                                                                                             2
                                     8.75%
                                                    13.94%
                                                                                             3
                                     4
                                                                                             4
                                  23.10%
                                                                                             5
                                                     3
                                                  37.21%                                     N/A


                                                                                                    

 

 

 

 

 

 

Where a scale from one through five is used, a “1” response indicates that they strongly disagree
with the statement and a “5” response indicates that they strongly agree with the statement.
                                                  D-4



 
    Question 9: The organization of the information on the system screens is clear.

                                           N/A
                                          4.88%
                                        5
                                                      1                                    1
                                     5.99%
                                                   22.94%                                  2
                                    4
                                                                                           3
                                 16.04%
                                                                                           4
                                                      2
                                       3                                                   5
                                                   23.29%
                                    26.86%                                                 N/A


                                                                                                      




                                                                                                  

 

 

 

 

 

 

 

Where a scale from one through five is used, a “1” response indicates that they strongly disagree
with the statement and a “5” response indicates that they strongly agree with the statement.

                                                  D-5



 
     Question 11: Terminology used in E2 is clear.
                                          N/A
                                         4.73%

                                          5             1                                           1
                                       7.65%         13.60%
                                                                                                    2
                                      4                    2                                        3
                                   21.80%               18.97%
                                                                                                    4
                                                                                                    5
                                                  3                                                 N/A
                                               33.27%


                                                                                                           

    Question 12: Of the following tasks, please indicate if there are any that are
    particularly difficult for you. 
                       

                                      Create travel
                   Approve travel,   authorizations,
                      6.85%             40.45%                       Create travel authorizations
         Create travel                                               Make travel reservations
        vouchers, 70.79%
                                                                     Create travel vouchers
                                      Make travel                    Approve travel
                                     reservations,
                                        54.14%

                                                                                                           

 

 

 

 

 

Where a scale from one through five is used, a “1” response indicates that they strongly disagree
with the statement and a “5” response indicates that they strongly agree with the statement.


                                                  D-6



 
    Question 13: Of the following tasks, please indicate if there are any that take you longer to
    complete than you believe it should. 
              


                                        Create travel
                    Approve travel,    authorizations,
                       7.61%              40.62%                        Create travel authorizations
         Create travel                                                  Make travel reservations
         vouchers, 71.33%
                                                                        Create travel vouchers
                                        Make travel                     Approve travel
                                       reservations,
                                          53.75%




                                                                                                        

 

 

 

 

 

 

Where a scale from one through five is used, a “1” response indicates that they strongly disagree
with the statement and a “5” response indicates that they strongly agree with the statement.


                                                  D-7



 
    Question 15: It is relatively easy for me to input information required to be reimbursed for
    travel expenses.   


                                        N/A
                                       6.18%        1                                              1
                                                 10.75%
                                      5                    2                                       2
                                   12.62%               15.29%                                     3
                                     4                                                             4
                                  26.53%               3                                           5
                                                    28.64%                                         N/A




    Question 16: The amount of time it takes to receive reimbursement for travel expenses is
    optimal.         
                                              1
                                            3.55%     2
                                     N/A            4.48%                                          1
                                    6.24%              3                                           2
                                                    16.62%
                                     5                                                             3
                                  41.06%                                                           4
                                                       4                                           5
                                                    28.05%                                         N/A

                                                                                                          

 

 

 

 

 

 

Where a scale from one through five is used, a “1” response indicates that they strongly disagree
with the statement and a “5” response indicates that they strongly agree with the statement.


                                                  D-8



 
    Question 17: I believe I am kept informed of the status of being reimbursed for travel
    expenses.                                      1
                                                2.54%
                                   N/A
                                  6.49%                 2
                                                     3.86%                                   1
                                                                                             2
                                                          3
                                     5                 19.55%                                3
                                  37.35%                                                     4
                                                        4                                    5
                                                     30.22%                                  N/A




    Question 18: Have your received training on how to use E2?
                                                  




                                       No
                                      33%
                                                                                             Yes
                                                                                             No
                                                       Yes
                                                       67%



                                                                                                    

 

 

 

 

 

 

Where a scale from one through five is used, a “1” response indicates that they strongly disagree
with the statement and a “5” response indicates that they strongly agree with the statement.
 
                                                     D-9



 
                     OPPORTUNITIES EXIST TO IMPROVE GSA’S
                   IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                              A080180/B/T/F10002

     APPENDIX E – RESULTS OF GSA-OIG TRAINING SATISFACTION SURVEY
As part of audit, we surveyed GSA E2 users to assess their level of satisfaction with training
provided for the system. The survey responses are summarized below. Where a scale from one
through five is used, a “1” response indicates that they strongly disagree with the statement and a
“5” response indicates that they strongly agree with the statement.
    Question 1: Who provided the training on E2 to you?



                   A Knowledgeable
                      Colleague                                             GSA
                       25.88%                                               CWGT 
                                           GSA
                                          42.45%                            Both GSA and CWGT
                    I don't know 
                         18.37%        CWGT                                 I don't know
                                       4.90%                                A Knowledgeable
              Both GSA and CWGT 
                                                                            Colleague 
                            8.41%



    Question 2: How was the training for E2 provided to you?
                             Other                                             Classroom
                            17.38%
                                                                               Auditorium
              Teleconference or
              videoconference
                    4.34%                                                      One-on-One Training
                                            Classroom
               Website/web case              39.18%
                                                                               Website/web case
                   8.28%
                                                                               Teleconference or
                       One-on-One        Auditorium
                                                                               videoconference
                        Training           6.31%
                        24.51%                                                 Other 




                                               E-1



 
    Question 3: Was the training provided when you first received access to E2 or was it too
    early or too late? 
                    


                        Too late 
                        15.07%                                        Close to when you needed to
                                                                      use E2
                                        Close to when you
                                                                      Too early
                    Too early           needed to use E2
                     30.96%                  53.97%                   Too late 




    Question 4: Training provided was effective at helping me resolve my challenges with using E2.
                            
                                        N/A
                                       7.69%

                                        5            1                                         1
                                     8.34%        16.19%                                       2
                                       4                 2                                     3
                                    17.91%            18.15%                                   4
                                                                                               5
                                                3
                                             31.73%                                            N/A




                                                  E-2



 
    Question 5: Training provided was relevant to my specific job role in E2.
                                            


                                       N/A
                                                  1                               1
                                      9.17%
                                               8.35% 2
                                                   10.48%                         2
                                    5
                                 15.72%                                           3
                                                      3                           4
                                        4          26.62%                         5
                                     29.65%                                       N/A




    Question 6: Training helped me complete travel transactions quicker in E2. 
                                  

                                       N/A
                                      8.46%         1                             1
                                                 14.53%
                                     5                                            2
                                  12.40%               2                          3
                                                    17.57%                        4
                                     4
                                  20.77%                                          5
                                                   3
                                                26.27%                            N/A




                                                 E-3



 
    Question 7: After completing training provided, I have a better understanding of how to
    complete travel transactions
                                 in E2. 

                                             
                                    N/A
                                   8.44%               1
                                      5             11.39%                                       1
                                   11.31%                                                        2
                                                             2
                                                          14.75%                                 3
                                     4                                                           4
                                  24.34%                                                         5
                                                        3
                                                     29.75%                                      N/A



    Question 8: After completing training provided, I am aware of help options available to me
    when I have  challenges using E2. 

                                                 
                                        N/A
                                       7.77%           1                                         1
                                     5              14.96%
                                                                                                 2
                                  11.94%                  2                                      3
                                                       16.43%
                                     4                                                           4
                                  20.77%
                                                                                                 5
                                                       3
                                                    28.13%                                       N/A




                                                    E-4



 
                         OPPORTUNITIES EXIST TO IMPROVE GSA’S
                       IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                                  A080180/B/T/F10002

    APPENDIX F - RESULTS OF GSA-OIG USER SUPPORT SATISFACTION SURVEY
 
As part of audit, we surveyed GSA E2 users to assess their level of satisfaction with user support
provided for the system. The survey responses are summarized below. Where a scale from one
through five is used, a “1” response indicates that they strongly disagree with the statement and a
“5” response indicates that they strongly agree with the statement.  
 

    Question 1: When using E2 and you need assistance, how do you most regularly receive assistance?
                                    E2 on-line help features
                                        12.35%


                                      CWGT Help Desk
                           Other 
                                         3.73%
                           5.13%                                  E2 on-line help features
                                       CFO Consolidated
                                         Help Desk                CWGT Help Desk
                                           5.13%                  CFO Consolidated Help Desk
                                                                  Knowledgeable Colleague
               Knowledgeable                                      Other
                 Colleague
                  73.66% 




                                                                                                        


                                                F-1



 
                                                                                                       


    Question 4: The information (such as on-line help, on-screen messages, and other documentation)
    is effective in helping me complete needed travel transactions. 
              
                                      N/A
                                    13.75%
                                      5                  1                                     1
                                   5.59%              20.51%                                   2
                                     4                                                         3
                                  13.29%                  2                                    4
                                                       20.51%
                                                                                               5
                                          3
                                       26.34%                                                  N/A

                                                                                                       




                                                F-2



 
    Question 5: Whenever I make a mistake using E2, it is easy to recover quickly using help
    options provided. 
                     
                                    N/A
                                  11.89%

                                     5
                                                          1                                    1
                                  4.20%
                                                       27.27%                                  2
                                     4
                                                                                               3
                                  7.23%
                                                                                               4
                                     3
                                                                                               5
                                  22.61%             2
                                                  26.81%                                       N/A


                                                                                                            


    Question 6: The information (such as on-line help, on-screen messages, and other
    documentation) provided is clear. 
                
                                                    
                                           N/A
                                          7.51%
                                         5
                                      3.99%                 1                                        1
                                                         25.12%                                      2
                                      4
                                   11.97%                                                            3
                                                                                                     4
                                       3                    2                                        5
                                    26.53%               24.88%                                      N/A


                                                                                                                




                                                  F-3



 
                                                                                               

 
    Question 8: Overall, I believe the help features with E2 should be more enhanced.

                                                  1
                                                 3%      2
                                                        2%
                                           N/A
                                                                                        1
                                           7%             3
                                                         12%                            2
                                                                                        3
                                                              4
                                                                                        4
                                                             21%
                                          5                                             5
                                         55%
                                                                                        N/A




                                                  F-4



 
          OPPORTUNITIES EXIST TO IMPROVE GSA’S
        IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                   A080180/B/T/F10002

    APPENDIX G - GSA CFO RESPONSE TO THE DRAFT REPORT




                           G-1



 
    G-2



 
    G-3



 
                            OPPORTUNITIES EXIST TO IMPROVE GSA’S
                          IMPLEMENTATION OF THE E2 TRAVEL SYSTEM
                                     A080180/B/T/F10002

                                   APPENDIX H - REPORT DISTRIBUTION
 

                                                                                                                   Electronic Copies

Office of the Chief Financial Officer (B) ..............................................................................4
          Chief Financial Officer ..............................................................................................3
          Director, Office of Financial Management Systems..................................................1
Federal Acquisition Service (Q) ............................................................................................3
       Commissioner ...............................................................................................................1
       Acting Director, Office of Travel and Transportation Services ...................................1
       Authorizing Official ......................................................................................................1
Office of the Chief Information Officer (I)............................................................................1
Chief Human Capital Officer (C) ..........................................................................................1
Internal Control and Audit Division (BEI) ............................................................................1
Assistant Inspector General for Auditing (JA and JAO) .......................................................2
Deputy Assistant Inspector General for Finance and Administrative Audits (JA-F) ............1
Deputy Assistant Inspector General for Acquisition Audits (JA-A) .....................................1
Administration and Data Systems Staff (JAS).......................................................................1
Assistant Inspector General for Investigations (JI) ................................................................1
Audit Liaison, Office of the Chief Financial Officer (B) ......................................................1
Audit Liaison, Federal Acquisition Service (Q) ....................................................................1
 




                                                                   H-1



 
